 OFFICE OF AUDIT
 REGION 3
 PHILADELPHIA, PA




               The State of New Jersey, Trenton, NJ

           Community Development Block Grant
           Disaster Recovery-Funded Homeowner
                   Resettlement Program




2014-PH-1009                                   SEPTEMBER 5, 2014
                                                        Issue Date: September 5, 2014

                                                        Audit Report Number: 2014-PH-1009


TO:            Stan Gimont, Deputy Assistant Secretary for Grant Programs (Acting), DG
               //signed//
FROM:          David E. Kasperowicz, Regional Inspector General for Audit, Philadelphia
               Region, 3AGA


SUBJECT:       The State of New Jersey Demonstrated Homeowner Eligibility for Its Homeowner
               Resettlement Program


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of the State of New Jersey’s Community
Development Block Grant Disaster Recovery-funded Homeowner Resettlement program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6730.
                                         September 5, 2014
                                         The State of New Jersey Demonstrated Homeowner
                                         Eligibility for Its Homeowner Resettlement Program




Highlights
Audit Report 2014-PH-1009


 What We Audited and Why                  What We Found

We audited the State of New Jersey’s     The State demonstrated that it used Disaster Recovery
Community Development Block Grant        funds to assist eligible homeowners for its program.
Disaster Recovery-funded Homeowner       Although the State obtained and provided
Resettlement program. We conducted       documentation to demonstrate that homeowners in our
the audit based on the substantial       sample occupied damaged residences as their primary
amount of funds the State allocated to   residences at the time of the storm, it can strengthen its
the program. Our objective was to        controls over this requirement for future homeowner
determine whether the State used Block   grants.
Grant Disaster Recovery funds for its
Homeowner Resettlement program to
assist eligible homeowners in
accordance with applicable U.S.
Department of Housing and Urban
Development (HUD) and Federal
requirements.

 What We Recommend

We recommend that HUD require the
State to strengthen its controls over
homeowner eligibility for future
homeowner grants by maintaining
documentation in its files to fully
demonstrate compliance with the
primary residency requirement before
disbursing funds.
                           TABLE OF CONTENTS

Background and Objective                                                      3

Results of Audit
      Finding: The State Demonstrated Homeowner Eligibility for Its Program   5

Scope and Methodology                                                         8

Internal Controls                                                             10

Appendix
      Auditee Comments and OIG’s Evaluation                                   11




                                            2
                        BACKGROUND AND OBJECTIVE

On October 29, 2012, Hurricane Sandy made landfall near Atlantic City, NJ. The storm caused
unprecedented damage to New Jersey’s housing, business, infrastructure, health, social service,
and environmental sectors. On October 30, 2012, President Obama declared all 21 New Jersey
counties major disaster areas. The U.S. Department of Housing and Urban Development (HUD)
identified the following nine counties as New Jersey’s most impacted areas: Atlantic, Bergen,
Cape May, Essex, Hudson, Middlesex, Monmouth, Ocean, and Union.

Through the Disaster Relief Appropriations Act of 2013, 1 Congress made available $16 billion in
Community Development Block Grant funds for necessary expenses related to disaster relief,
long-term recovery, restoration of infrastructure and housing, and economic revitalization. In
accordance with the Robert T. Stafford Disaster Relief and Emergency Assistance Act of 1974,
these disaster relief funds were to be used in the most impacted and distressed areas affected by
Hurricane Sandy and other declared major disaster events that occurred during calendar years
2011- 2013.

On March 5, 2013, HUD issued Federal Register Notice 5696-N-01, which advised the public of
the initial allocation of $5.4 billion in Block Grant funds appropriated by the Disaster Relief
Appropriations Act for the purpose of assisting recovery in the most impacted and distressed
areas declared a major disaster due to Hurricane Sandy. 2 HUD awarded the State $1.8 billion
from this initial allocation of funds. On April 29, 2013, HUD approved the State’s action plan.
The plan identified the purpose of the State’s allocation, including criteria for eligibility, and
how the uses addressed long-term recovery needs. On May 13, 2013, HUD approved a grant
agreement that obligated more than $1 billion of the initial $1.8 billion allocation. The Disaster
Relief Act required the State to expend obligated funds within 2 years of the date of obligation.

The governor of New Jersey designated the State’s Department of Community Affairs as the
responsible entity for administering its Disaster Recovery grant. The State established the
Homeowner Resettlement program to incentivize homeowners to remain in their communities
during its recovery and rebuilding efforts after the storm. The State initially allocated $180
million to fund the program. In January 2014, HUD approved an amendment to the State’s
action plan, which added $35 million to the program. The State believed the amendment would
enable it to assist every eligible homeowner who applied to the program.

Under the program, eligible homeowners would receive a $10,000 grant, which could be used for
any nonconstruction purpose to assist them to remain in the county they lived in at the time of
the storm. The State’s action plan required homeowners to meet the following criteria to qualify
for a grant:

    •   The residence must have been located in one of the nine most impacted counties,

1
 Public Law 113-2, dated January 29, 2013
2
 Areas impacted by Hurricane Sandy included Connecticut, Maryland, New Jersey, New York City, New York
State, and Rhode Island.

                                                    3
    •   The residence must have sustained damage of at least $8,000 or 1 foot or more of water
        on the first floor,
    •   The homeowner must have registered for assistance from the Federal Emergency
        Management Agency (FEMA), and
    •   The residence must have been owned and occupied by the homeowner as their primary
        residence at the time of the storm.

The State’s program policy further stated that second homes did not qualify a homeowner for a
grant. This requirement was in line with the HUD notice, 3 which stated that a second home, as
defined in Internal Revenue Service Publication 936, 4 was not eligible for residential incentives.
The program also required homeowners who received grants to maintain a primary residence for
3 years in the county where their damaged property was located.

As of November 2013, the State had expended approximately $159 million of the program’s
$215 million to assist 15,895 homeowners.

Our objective was to determine whether the State used Block Grant Disaster Recovery funds for
its Homeowner Resettlement program to assist eligible homeowners in accordance with
applicable HUD and Federal requirements.




3
  Federal Register Notice 5696-N-01, dated March 5, 2013
4
  Internal Revenue Service Publication 936 defined a main home as a home where one ordinarily lives most of the
time and a second home as a home that one chooses to treat as a second home.

                                                        4
                                 RESULTS OF AUDIT


Finding: The State Demonstrated Homeowner Eligibility for Its
Program
The State demonstrated that it used Disaster Recovery funds to assist eligible homeowners for its
program. Although the State obtained and provided documentation to demonstrate that
homeowners in our sample occupied damaged residences as their primary residences at the time
of the storm, it can strengthen its controls over homeowner eligibility for future homeowner
grants by maintaining complete documentation in its files to fully demonstrate compliance with
the primary residency requirement before disbursing funds.


 The State Followed Its Policy

              The State maintained documentation in accordance with its program policy for the
              68 homeowner files and associated grants valued at $680,000 that we reviewed.
              For example, the files contained documentation, such as public and FEMA
              records and a copy of the applicant’s driver license, to support ownership and
              primary residence status. However, the documentation the State’s policy required
              did not fully demonstrate that homeowners occupied damaged residences as their
              primary residences at the time of the storm. Specifically, 16 of the 68 files
              contained driver licenses issued after the storm. Public records searches that we
              performed for the 68 files showed that 21 of the homeowners were associated
              with at least one additional address at the time of the storm and that at least 3 of
              the 21 homeowners owned another property at the time of the storm which
              brought homeowner residency at the time of the storm into question.

 The State Provided Additional
 Documentation To Demonstrate
 Primary Residency

              At the end of the audit, the State obtained and provided additional documentation
              for the homeowners in our sample. Specifically, the State provided driver license
              address change histories and vehicle registration applications from its Motor
              Vehicle Commission, voter registration municipality information from its
              Department of State, and tax assessment records and other documents to resolve
              problems concerning homeowners who were associated with more than one
              address at the time of the storm. The State also contacted 10 of the homeowners
              to obtain additional information. The additional documentation demonstrated that
              the homeowners in our sample occupied damaged residences as their primary
              residences at the time of the storm.


                                                5
    The State Can Strengthen
    Controls

                  Although HUD did not specify how the State should have verified primary
                  residency, it provided guidance to determine primary residency. 5 For example,
                  HUD suggested that a grantee could determine primary residency by reviewing
                  property tax homestead exemptions. If a homestead exemption was not in place
                  at the time of the storm, an affidavit of primary residence could have been used
                  and must have been supported by documentation such as an income tax return or
                  utility bills which were active as of the date of the storm.

                  While the State did not consider the homestead exemption a practical
                  documentation option for its program, 6 it believed that its program policy
                  addressed the verification of primary residency. However, the documentation the
                  State required in its policy verified only that the applicant owned the damaged
                  residence, registered the property as a primary residence with FEMA, and met the
                  minimum requirements for proof of address 7 at the time the driver’s license was
                  issued. 8 Without the additional documentation the State provided at the end of
                  the audit, the documentation maintained in the files alone was not sufficient to
                  demonstrate that the homeowners in our sample occupied damaged residences as
                  their primary residences at the time of the storm. The State can strengthen its
                  controls over homeowner eligibility for future homeowner grants by requiring
                  additional documentation beyond a driver’s license to show active primary
                  residency at the time of the storm.

    Conclusion

                  The State demonstrated that the homeowners in our sample occupied damaged
                  residences as their primary residences at the time of the storm. Although the State
                  obtained and provided documentation to demonstrate compliance with this
                  requirement, it can strengthen its controls over homeowner eligibility for future
                  homeowner grants.




5
  Community Development Block Grant Disaster Recovery Toolkit, dated March 2013
6
  Although New Jersey law contained a homestead benefit, its availability was restricted based on a combination of
income thresholds, age, blindness, and other disability. New Jersey did not have a generally available homestead
exemption.
7
  To meet the New Jersey Motor Vehicle Commission’s proof of address requirement, applicants needed to provide
only one item from a list of several possible documents. Applicants with second homes could use a property tax bill
to obtain a driver license with the address of their second home.
8
  In addition to accepting driver licenses dated after the storm as proof of primary residency, the State also accepted
licenses that were dated 2 or more years before the storm.

                                                           6
Recommendations

          We recommend that HUD’s Deputy Assistant Secretary for Grant Programs direct
          the State to

          1A.     Strengthen its controls over homeowner eligibility for future homeowner
                  grants by maintaining documentation in its files to fully demonstrate
                  compliance with the primary residency requirement before disbursing
                  funds.




                                          7
                         SCOPE AND METHODOLOGY

We conducted the audit from November 2013 through June 2014 at the State’s offices at 101
South Broad Street, Trenton, NJ, and our office in Philadelphia, PA. The audit covered the
period January through November 15, 2013, but was expanded when necessary to include other
periods.

To accomplish our objective, we reviewed

   •   Relevant background information;

   •   Applicable regulations, HUD notices, and the State’s policies and procedures;

   •   The Disaster Relief Appropriations Act, Public Law 113-2;

   •   The State of New Jersey’s Block Grant Disaster Recovery action plan, as approved by
       HUD on April 29, 2013;

   •   The funding agreement between HUD and the State, dated May 13, 2013;

   •   Correspondence prepared by HUD, the State, and other related parties;

   •   A HUD monitoring report, dated July 8, 2013;

   •   Integrity monitoring reports prepared by the State’s contractor;

   •   Relevant reports issued by the U.S. Government Accountability Office and the U.S.
       Department of Homeland Security, Office of the Inspector General (DHS OIG);

   •   Relevant policies and procedures of other States receiving Block Grant Disaster
       Recovery funding; and

   •   Information entered by the State into HUD’s Disaster Recovery Grant Reporting system.

We conducted interviews with employees of the State and HUD staff located in Fort Worth, TX,
and Washington, DC, as well as employees of DHS OIG and FEMA.

To achieve our audit objective, we relied on the State’s computer-processed data. We used the
computer-processed data to select a sample of grant recipients to review. Although we did not
perform a detailed assessment of the reliability of the data, we found the data to be adequate for
our purposes.

Based on the State’s program policy, we reviewed the sample files for documentation showing
that homeowners registered for FEMA assistance with the damaged residence address, FEMA

                                                 8
and affiliate records showing property damage, public records showing that the homeowner
owned the damaged residence, and driver licenses showing the damaged property address. This
process included a review of FEMA data and Chicago Title data provided by the State. We
performed public records searches using Accurint to determine whether the homeowner was
associated with more than one address at the time of the storm, contacted county and township
offices to determine whether the damaged residences had been registered as rental properties,
and reviewed tax assessment and other property records. We also reviewed additional
documentation that the State provided at the end of the audit.

To select our audit sample, we determined that the State had expended approximately $159
million to assist 15,895 homeowners as of November 2013. Because each homeowner received
the same amount, we statistically selected 68 grants valued at $680,000. We selected the grants
using statistical selection procedures in SAS®.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •   Compliance with laws and regulations – Policies and procedures that
                   management has implemented to reasonably ensure that the use of resources is
                   consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of the State’s internal control.




                                                 10
                        APPENDIX

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation     Auditee Comments




                           11
Comment 1



Comment 2




Comment 3




            12
                         OIG Evaluation of Auditee Comments

Comment 1   The State contended that HUD approved its four-point verification procedure.
            These detailed procedures were contained in the State’s Resettlement Program
            Policy. HUD did not formally accept or approve this document. While HUD
            approved the State’s action plan on April 29, 2013, the plan did not contain the
            four-point verification procedure.

Comment 2   The State contended that we found that each of the homeowners in our sample
            occupied the damaged residence as their primary residence at the time of the
            storm. It also contended that the 100 percent eligibility rate in the sample reflects
            the sufficiency of the State’s controls. However, as stated in the audit report, the
            documentation required by the State’s policy did not fully demonstrate that
            homeowners occupied damaged residences as their primary residences at the time
            of the storm. At the end of the audit, the State obtained and provided additional
            documentation for the homeowners in our sample. Specifically, the State
            provided driver license address change histories, vehicle registration applications,
            voter registration information, tax assessment records, and other documents. The
            State also contacted 10 of the homeowners to obtain additional information. The
            additional documentation sufficiently demonstrated that the State used Disaster
            Recovery funds to assist eligible homeowners in our sample.

Comment 3   The State believed that its four-point verification procedure was sufficient to
            confirm that a grant applicant satisfied the primary residence eligibility criteria.
            However, as stated in the report, the documentation required by the State’s policy
            was not sufficient to demonstrate that the homeowners occupied damaged
            residences as their primary residences at the time of the storm. The State’s four-
            point verification procedure showed that the applicant 1) attested to the damaged
            residence as being a primary residence, 2) owned the damaged residence, 3)
            registered the property as a primary residence with FEMA, and 4) met the
            minimum requirements for proof of address at the time the driver’s license was
            issued. Applicants with second homes could easily use a property tax bill to
            obtain a driver license with the address of their second home. Further, the State’s
            policy did not include procedures to follow-up on driver licenses that were dated
            after the storm as well as licenses that were dated years before the storm. As
            stated in the report, the additional documentation the State provided demonstrated
            that the homeowners in our sample occupied damaged residences as their primary
            residences at the time of the storm. The State can strengthen its controls over
            homeowner eligibility for future homeowner grants by requiring additional
            documentation beyond a driver license to show active primary residency at the
            time of the storm.




                                             13
